No. 20-

 

In THE
Supreme Court of the United States

TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED,
TCT MOBILE (US) INc.,

Petitioners,
Vv.

Gopo KaisuHa IP BRIDGE 1,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,919 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 8, 2021.

Colin Casey Hogan.
Wilson-Epes Printing Co., Inc.
